Matanuska Valley Federal
Credit Union VISA Credit Card
Application Disclosures
INTEREST RATES AND INTEREST CHARGES

Annual Percentage Rate (APR) for
Purchases

7.25% to 10.25%, based on your creditworthiness when you open your
account. This APR will vary with the market based on the U.S. Prime Rate.*

APR for Cash Advances and Balance
Transfers

7.25% to 10.25%, based on your creditworthiness when you open your
account. This APR will vary with the market based on the U.S. Prime Rate.

Paying Interest

Your due date is approximately 30 days after the close of each billing cycle.
We will not charge any interest on the portion of the purchases balance that
you pay by the due date each month. We will begin charging interest on cash
advances and balance transfers on the transaction date.

For Credit Card Tips from the
Consumer Financial Protection
Bureau

To learn more about factors to consider when applying for or using a credit
card, visit the website of the Consumer Financial Protection Bureau at
http://www.consumerfinance.gov/learnmore.
FEES

Annual Fee

None

Transaction Fees • Cash Advance Fee $5 per day 2% of the US dollar amount of the foreign transaction.
• Foreign Transaction Fee
Penalty Fees • Late Payment Fee •
Returned Item Charge

Up to $15 Up to $15

OTHER CARD FEATURES

Credit Companion

If you elect to obtain the optional loan protection coverage and pay the
monthly protection fees, we will cancel your payment(s) or entire loan
balance if you become disabled or in the event of death. Hospitalization
benefit is also available.

How We Will Calculate Your Balance: We use a method called “average daily balance” (including new purchases).
Billing Rights: Information on your rights to dispute transactions and how to exercise those rights is provided in your
Credit Card Account Agreement.
In addition to the fees above, we may also charge the following fees:
Card Replacement
Fee: $10.00 per card
Statement Copy
Fee: $2.50 per statement
*The APR is based on the US Prime Rate of 3.25% as of December 1, 2011. We add a margin of between 4.0% and 7.0%
to determine your APR.
The above rates and fees are effective as of January 16, 2012.

